HEIDI J. GUMIENNY
PARTNER
HGUMIENNY@GRSM.COM
DIRECT LINE: (713) 726-6372

ATTORNEYS AT LAW
TRANSWESTERN TOWER
1900 WEST LOOP SOUTH, SUITE 1000
HOUSTON, TX 77027
WWW .GRSM.COM

May 26, 2021
By Fedex
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543-0001
Re:

James W. Robertson, Sr. v. Intratek Computer, Incorporated
No. 20-1229

Dear Clerk of the Court:
We are writing to request a 30-day extension of the time for filing an opposition to the
petition for certiorari filed by James W. Robertson, Sr. (“Robertson”) in the above-referenced case,
up to and including July 2, 2021. Robertson’s petition for certiorari was filed on March 1, 2021,
and Respondent Intratek Computer, Inc.’s opposition brief is now due on June 2, 2021.
We have diligently attempted to meet the Court’s deadline for filing an opposition to
Robertson’s petition, but need an extension in order to provide sufficient time to prepare an
opposition while also meeting other obligations during the next few weeks. The undersigned
counsel, Heidi J. Gumienny, who is primarily responsible for drafting the brief in opposition to the
petition for certiorari, has the following events and deadlines involving other clients and cases that
also need adequate attention:
1. Respondent’s counsel has an Answer due to be filed on June 14, 2021 in Case No.
4:21-cv-01542, Ashley Robinson v. The City of La Marque, In the United States District Court for
the Southern District of Texas, Houston Division.
2. Respondent’s counsel has an Appellant’s Brief due to be filed on June 16, 2021 in Case
No. 05-21-00143-CV, Metro One Loss Prevention Services Group, Inc. v. Dann Bailey, In the
Fifth Court of Appeals of Dallas, Texas.

3. Respondent’s counsel has an Appellant’s Brief due to be filed on May 26, 2021 in
Case No. 21-30058, Specialized Industrial Maintenance, Inc. v. APTIM Maintenance, L.L.C., In
the United States Court of Appeals for the Fifth Circuit.
4. Respondent’s counsel has an Appellee’s Brief due to be filed on July 1, 2021 in Case
No. 21-40089, Yarbrough v. Santa Fe Police, In the United States Court of Appeals for the Fifth
Circuit.
An extension of time will allow us to meet these obligations and also to file a response that
adequately addresses the points raised in the petition for certiorari. We have contacted Robertson’s
counsel regarding our request for an extension, and he has consented to the request for extension.
Thank you.
Best regards,
Heidi J. Gumienny
Heidi J. Gumienny*
* Supreme Court of the United States Bar
Admission pending

cc:

Via Email
Mr. Colin Walsh
Wiley Walsh, P.C.
1011 San Jacinto Blvd., Suite 401
Austin, Texas 78701
Counsel for Petitioner
James W. Robertson Sr.

1111377/58582182v.1

